         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Follow-up Review of Security at the
Strategic Petroleum Reserve




INS-O-12-01                     October 2011
                                 Department of Energy
                                    Washington, DC 20585
                                        October 27, 2011


MEMORANDUM FOR THE PROJECT MANAGER, STRATEGIC PETROLEUM RESERVE



FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                           for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: "Follow-up Review of Security at the Strategic
                         Petroleum Reserve"
BACKGROUND
The Department of Energy's (Department) Strategic Petroleum Reserve (SPR) has the largest
stockpile of Government-owned emergency crude oil in the world and exists foremost as an
emergency response tool the President can use should the United States be confronted with an
economically-threatening disruption in oil supplies. Established in the aftermath of the 1973-74
oil embargo, SPR can store approximately 727 million barrels of oil in underground salt caverns
located in Louisiana and Texas. The Department is required to ensure adequate security is
provided to safeguard one of our nation's critical infrastructures. The SPR Project Management
Office responsible for ensuring this security is located in New Orleans, Louisiana. SPR is
operated for the Department under its contract with the DM Petroleum Operations Company.

In June 2005, the Office of Inspector General (OIG) issued a report on "Review of Security at the
Strategic Petroleum Reserve," (DOE/IG-0693). Our report concluded that additional measures
could be implemented to improve physical security of SPR sites in the areas of the insider threat,
deadly force authority, protective force performance test realism, Security Police Officers (SPO)
performance testing programs and that a comprehensive security review was needed.
Management concurred with the recommendations and stated that it took corrective actions in
response to our report. Additionally, in August 2010, the OIG Hotline received a complaint
alleging that the protective force performance test realism had not improved and that SPR
training program did not provide a clear understanding as to whether or not a SPO should shoot
to kill to protect personnel or property.

Given the recent complaint and the importance of maintaining effective security, we initiated this
inspection to determine if SPR had improved selected aspects of its security and to assess the
facts and circumstances surrounding the allegation.

RESULTS OF INSPECTION

SPR officials have generally implemented corrective actions in response to our earlier report;
however, our inspection revealed a concern regarding SPOs' understanding of situations in which
the use of deadly force was permitted at three of the four SPR sites we visited. Specifically, we
                                                2


determined that contrary to the Federal regulation which limits the use of deadly force to the
protection of personnel from imminent death or serious bodily harm, 9 of 36 SPOs we
interviewed mistakenly believed that they should use deadly force to protect SPR infrastructure.

We confirmed that Department officials have generally taken corrective actions to improve
SPR's processes regarding the insider threat, deadly force authorities, protective force
performance test realism; and had completed a comprehensive security review and reviewed
SPO performance testing programs. Specifically, Department officials:

   •   Ensured that a process was in place for permanent SPR employees to complete a Federal
       background investigation and took additional steps during our fieldwork to control and
       limit access to critical equipment by temporary employees;

   •   Conducted a review and determined that the current use of deadly force authority
       provided a sufficient level of protection;

   •   Made improvements in the realism of SPO performance tests involving simulated
       explosives and helicopters, controllers and evaluators, opponent instructions and SPO
       security levels and staffing; and,

   •   Conducted a comprehensive review of SPR security and a review of SPO performance
       testing programs which identified issues and corrective actions that were taken to address
       the issues.

Additionally, we were unable to substantiate the August 2010 allegation. Our review determined
that SPR made improvements in the realism of the SPO performance test and that SPR training
program provided a clear understanding that a SPO should only shoot to kill to protect personnel
and not property. Despite these improvements, confusion as to when deadly force may be used
continues to exist.

The weakness we identified in this report occurred, in part, because Department management at
SPR had not concentrated their attention on ensuring that responsible facilities contractors
appropriately applied Department's deadly force policy. Contractor officials charged with
managing the security program had also not ensured correct knowledge of deadly force Federal
regulations. For example, Federal officials did not ensure that the SPO deadly force training
provided by SPR contractors would make certain that all SPOs uniformly understood the use of
deadly force. Department requirements expressly stipulate that deadly force may only be used to
protect personnel at the SPR, not equipment and infrastructure.

Without improvements in the implementation of appropriate security practices, SPR lacks
assurance that deadly force would be properly applied. Should the SPOs who held the mistaken
belief on the use of deadly force act to apply their incorrect interpretation, severe and
unacceptable consequences for personnel and the Department could occur. As such, a goal of
ensuring that all SPOs thoroughly understand such rules is, in our opinion, an appropriate
strategy at all SPR sites. Even though the responses at the last three facilities we visited
                                                 3


significantly improved from those received during our initial testing, certain SPO, still expressed
incorrect interpretative of the deadly force policy. As such, we recommend that the Project
Manager, Strategic Petroleum Reserve Project Management Office, ensure that all SPOs
understand when it is appropriate to use deadly force.

MANAGEMENT REACTION

The Project Manager, Strategic Petroleum Reserve Project Management Office, concurred with
the recommendation and considers them closed. Management indicated that they had taken
corrective action to address the SPOs' awareness of deadly force use and will continue intensive
oversight and improvement efforts to ensure that each SPO fully understands when deadly force
is justified. We consider management's comments and corrective action responsive to our
recommendation. Management comments are included in their entirety in Appendix 2.

Attachment

cc:   Deputy Secretary
      Under Secretary of Energy
      Chief of Staff
      Acting Assistant Secretary for Fossil Energy
      Chief Health, Safety, and Security Officer, Office of Health, Safety, and Security
      Deputy Assistant Secretary for Petroleum Reserves
REPORT ON THE FOLLOW-UP REVIEW OF SECURITY AT THE
STRATEGIC PETROLEUM RESERVE

TABLE OF
CONTENTS


Security Management

Details of Finding                                  1

Recommendation                                      8

Management and Inspector Comments                   8


Appendices

1. Scope and Methodology                            9

2. Management Comments                              11
SECURITY     SPR officials have generally implemented corrective actions in
MANAGEMENT   response to our earlier report; however, our inspection revealed a
             concern regarding SPOs' understanding of situations in which the
             use of deadly force was permitted at three of the four SPR sites we
             visited. Specifically, we determined that contrary to the Federal
             regulation which limits the use of deadly force to the protection of
             personnel from imminent death or serious bodily harm, 9 of 36
             SPOs we interviewed mistakenly believed that they should use
             deadly force to protect SPR infrastructure.

                               Program Improvements

             We confirmed that SPR officials had generally taken corrective
             actions in response to the five recommendations from our 2005
             OIG Report to improve SPR's processes regarding insider threat,
             deadly force authorities, protective force performance test realism;
             and had completed a comprehensive security review and reviewed
             SPO performance testing programs. Specifically, Department
             officials:

                •   Ensured that a process was in place for permanent SPR
                    employees to complete a Federal background investigation
                    and took additional steps during our fieldwork to control
                    and limit access to critical equipment by temporary
                    employees;

                •   Conducted a review and determined that the current use of
                    deadly force authority provided a sufficient level of
                    protection;

                •   Made improvements in the realism of SPO performance
                    tests involving simulated explosives and helicopters,
                    controllers and evaluators, opponent instructions and SPO
                    security levels and staffing; and,

                •   Conducted a comprehensive review of SPR security and a
                    review of SPO performance testing programs which
                    identified issues and corrective actions that were taken to
                    address these issues.

             Additionally, we were unable to substantiate the August 2010
             allegation. Our review determined that SPR made improvements
             in the realism of the SPO performance test and that SPR training
             program provided a clear understanding that a SPO should only
             shoot to kill to protect personnel and not property.




Page 1                                                        Details of Finding
                              Deadly Force Awareness

         Despite program improvements and the clarity of training
         materials, our review revealed that some SPOs at three of the four
         SPR sites we visited were not aware of the limited circumstances
         in which the use of deadly force was justified. Specifically, 9 of
         36 SPOs told us that they would use deadly force to protect site
         equipment and infrastructure. However, 10 Code of Federal
         Regulations Part 1049, limits the use of deadly force at the SPR to
         the protection of personnel from imminent death or serious bodily
         harm.

         During our inspection, we did not find any evidence to substantiate
         the August 2010, OIG Hotline allegation that the SPR training
         program did not provide a clear understanding as to whether or not
         a SPO should shoot to kill to protect personnel or property. While
         we did not attend an actual lecture, class or force-on-force
         exercise; our review of the SPR deadly force training program
         determined that the training was consistent with the SPR deadly
         force policy. Specifically, the policy limits the use of deadly force
         to the protection of personnel from imminent death or serious
         bodily harm. Based on an examination of various records, we also
         determined that the training was given to all SPOs at least
         annually.

         Also, we interviewed 36 of 150 SPOs who attended the deadly
         force training. During our initial September 2010 fieldwork, six of
         seven SPOs at the first facility visited, told us that they would use
         deadly force to protect SPR equipment and infrastructure. The
         OIG immediately reported this concern to a senior SPR security
         manager, who took immediate action by providing deadly force
         training to SPOs at all four sites in November and December 2010.
         In addition to the training, we determined that SPR officials
         continually provide deadly force briefings at shift change and have
         posters that outline deadly force rules in the meeting and change
         out rooms. In May 2011, while conducting follow-up fieldwork,
         we interviewed an additional 29 SPOs at the remaining sites and
         found that 3 SPOs continued to respond to a series of scenarios that
         they would inappropriately use deadly force to protect SPR
         equipment and infrastructure.

         Even though the responses at the last three facilities we visited
         significantly improved, just one instance of incorrect use of deadly
         force could result in severe and unacceptable consequences for




Page 2                                                    Details of Finding
         personnel and the Department. As such, a goal of zero tolerance
         is, in our opinion, an appropriate strategy at all Department
         facilities.

                                             Insider Threat

         We discovered that SPR officials had taken action to mitigate
         insider threat for both permanent and temporary employees. 1, 2
         Specifically, SPR management mitigated insider threat by:

              •    Requiring permanent employees to undergo a Federal
                   background investigation; and,

              •    Installing fences with locks or card badge readers around
                   critical infrastructure which limited and controlled
                   temporary employees' access. During our inspection, SPR
                   completed installation of these fences around critical
                   infrastructure.

         Although SPR conducted local investigations for both permanent
         and temporary employees, we found that the Federal background
         investigations provided a more comprehensive assessment of an
         employee's background. Specifically, the Federal background
         investigation includes a National Agency Check, finger print check
         and a review of the Federal Bureau of Investigation's national
         criminal history database. The implementation of Homeland
         Security Presidential Directive 12 (HSPD-12), Policy for a
         Common Identification Standard for Federal Employees and
         Contractors, requires a Federal background investigation to
         mitigate insider threat for permanent employees. In reviewing a
         Federal database report that identified the status of SPR employees'
         background investigation adjudication, we determined that
         approximately 87 percent, 910 of the 1,046 permanent employees,
         were provided a Federal background investigation. Our review of
         this report and discussions with SPR officials revealed that the
         remaining 136 employees were either awaiting completion of their
         investigation or were no longer employed at SPR. We also found
         that SPR officials implemented additional security measures for

         1
           An "insider" is anyone with authorized, unescorted access to DOE facilities. The
         insider threat could entail use of violence or physical force and could be active or passive.
         Active support could be provided by direct participation, passive support by simply
         providing information to outsiders.
         2
           Employees are considered permanent if they are expected to be employed longer than
         six consecutive months; temporary employees are employed six consecutive months or
         less. Some temporary employees had access to SPR periodically for short visits while
         others were on site for eight hours a day for weeks at a time.




Page 3                                                                     Details of Finding
         approximately 100 temporary employees who did not require a
         Federal background investigation and were allowed unescorted
         access to the SPR facilities where critical infrastructure are located.
         Specially, SPR employed a local background investigation
         comprising of a social security number check and a criminal
         background check of the counties where a potential employee had
         lived for the past seven years prior to permitting access by
         temporary employees.

         To help further mitigate the issue of limited and controlled access
         of temporary employees, SPR installed fences to ensure positive
         control over their critical infrastructure. As a result, these
         temporary employees do not have access to the critical
         infrastructure areas. Prior to our review, three of the SPR sites had
         installed fences around critical infrastructure; one had not. During
         the inspection, the fourth site completed the fence installation,
         thereby ensuring that critical infrastructure was protected and
         secured with a lock or card badge reader. Future improvements at
         these sites included the application of badge card readers to all
         fenced areas protecting critical infrastructure, a measure which is
         scheduled for completion by December 2011.

                                Protection Authorities

         Our inspection revealed that the previous Principal Deputy
         Assistant Secretary for Fossil Energy (FE) concluded that the
         present authority, 10 CFR Part 1049, to use deadly force provided
         a sufficient level of protection in light of SPR's designation as
         critical infrastructure. This authority requires that SPR SPOs only
         use deadly force when protecting personnel from imminent death
         or serious bodily harm. In our 2005 OIG report, we asked FE
         officials to determine if the Department's policy regarding the
         protection of nuclear weapons, nuclear explosive devices and or
         special nuclear material, also designated as critical infrastructure,
         would be appropriate at SPR sites. This authority authorized the
         use of deadly force to protect not only personnel, but also property.

         In response to our recommendation, SPR conducted a review
         which was included in a September 2005 memorandum approved
         by the previous FE Principal Deputy Assistant Secretary.
         Specifically, management's decision regarding the SPR deadly
         force policy was based on the inherent danger of the property
         being protected. An attachment to this memorandum stated that
         the loss of SPR assets, that is oil, does not pose grave danger to the
         public sufficient to warrant the use of deadly force as even a




Page 4                                                     Details of Finding
         catastrophic event at SPR would have limited effect outside the
         boundaries of a SPR site. Also, the attachment noted that there
         was no need to recapture stolen oil because there was no feasible
         way for an opponent to steal sufficient quantities of oil to
         significantly endanger the public or environment. Although the
         Department designated SPR equipment as critical infrastructure,
         our discussions with SPR officials at each of the four sites
         inspected confirmed that there was no indication of nuclear
         materials present. Additionally, our physical inspection at each
         site did not identify the presence of nuclear materials.

                             Performance Test Realism

         Our inspection did not substantiate the allegation concerning
         performance test realism. We found that SPR officials had taken
         several steps to improve the realism of performance tests
         conducted at SPR facilities. Specifically, in response to our
         recommendation, SPR officials took actions to improve
         performance test realism regarding simulated explosives and
         helicopters, controllers and evaluators' visibility, opponent
         instructions and SPO security levels and staffing. The
         performance tests evaluate the readiness of protective forces to
         defend the Department and its critical infrastructure. We were
         unable to observe a performance test during our fieldwork;
         however, we tested these improvements through SPO interviews
         and document reviews.

         Our review included interviews with 36 SPOs regarding specific
         aspects of performance testing realism and the improvements made
         to these tests. Specifically we found that:

            •   Twenty-seven of the 36 SPOs commented that the use of
                simulated helicopters and explosives did not detract from
                an exercise's realism. On one occasion the exercise
                involved a real helicopter; however, due to the cost, a
                decision was made to use simulated helicopters in
                subsequent exercises. We also found that the simulated
                explosives used during performance testing had been
                upgraded to be almost identical to real explosives.




Page 5                                                   Details of Finding
            •   Sixteen of the 36 SPOs commented that controllers and
                evaluators who wore orange vests detracted from the
                realism of an exercise. Specifically, the orange vests could
                provide the general location of the opposition forces. DOE
                Order 473.3, Protection Program Operations, requires the
                presence of both controllers and evaluators to ensure safety
                during force-on-force exercises and assess exercise results.
                A SPR Security Specialist said that controllers and
                evaluators are provided a pre-exercise brief. During this
                briefing they are advised to maintain contact with an
                exercise participant but move to a distance that would not
                identify the SPO positions.

            •   None of the 36 SPOs were able to overhear opposition
                force performance test information or instructions. During
                our interviews, the SPOs said that the pre-exercise briefs
                were conducted for protective forces and opposition forces
                separately which could not be overheard and briefs were
                not conducted during exercises.

            •   SPR management also included additional exercise
                enhancements to include canine release authority, upgrades
                to opposition force weaponry and use of an independent
                opposition force during one of the performance tests.

         Additionally, our review included an evaluation of SPR security
         and staffing levels reports for calendar years (CY) 2008, 2009 and
         2010. We determined that during these 3 years, 55 exercises had
         been conducted, of which 45 had been conducted at heightened
         security and staffing levels and 10 had been conducted at normal
         security and staffing levels. Exercises conducted at heightened
         security levels increase the number of SPOs available to defend the
         site during the test. At least one exercise had been conducted at
         each SPR facility at normal staffing and security levels for CY
         2008 and 2009; but none at these levels during CY 2010. A SPR
         Security Specialist said that CY 2010 did not include normal level
         exercises due to information being gathered regarding the SPR
         vulnerability analysis validation. The Security Specialist said that
         once this information had been obtained, exercises would be
         conducted at normal staffing and security levels at all sites.
         Overall, through our interviews and document reviews, we found
         that performance tests realism had generally improved.




Page 6                                                   Details of Finding
                             Office of Independent Oversight Review

               The Department's Office of Health, Safety and Security's Office of
               Independent Oversight (OIO) took steps to evaluate the protective
               force performance testing program and to conduct a
               comprehensive review of security at SPR. The OIO conducted a
               review of the SPR performance test program and a review of
               security had been conducted by OIO in January and February
               2007. The review included several force-on-force and limited
               scope performance test exercises, an evaluation of SPR training
               and training records, examination of routine and emergency duties
               and an analysis of physical, cyber and personnel security. The
               review also included an evaluation at each of the SPR sites. OIO
               issued a report that identified 57 issues; the overall conclusion of
               the report was a rating of "Effective Performance."

               We also reviewed an evaluation of a February 10, 2009, Corrective
               Action Plan final report completed by SPR. This report provided
               the status of the corrective actions of the 57 issues identified in the
               2007 OIO report and we determined that corrective actions for all
               57 issues were reported closed by SPR Management. During our
               discussions, we found that SPR officials had requested that an
               independent security subject matter expert (SME) review SPR's
               corrective actions and validate that these activities were adequate.
               Our review of the SME documents determined that the SME had
               validated all 57 corrective actions. Further, we spoke with an OIO
               official and received confirmation that the corrective actions taken
               by SPR, if appropriately implemented, would meet OIO's
               expectations and all issues had been closed.

CONTRIBUTING   The weakness identified in this report occurred, in part, because
FACTORS AND    Department management at SPR had not concentrated their
IMPACT         attention on ensuring that responsible facilities contractors
               appropriately applied Department's deadly force policy.
               Contractor officials charged with managing the security program
               had also not ensured correct knowledge of deadly force Federal
               regulations. For example, Federal officials did not ensure that the
               SPO deadly force training provided by SPR contractors would
               make certain that all SPOs uniformly understood the use of deadly
               force. Without improvements in the implementation of appropriate
               security practices, SPR lacks assurance that deadly force would be
               properly applied. Should SPOs act to apply their incorrect
               interpretation of deadly force rules, severe and unacceptable




Page 7                                                           Details of Finding
                 consequences for personnel and the Department could occur. As
                 such, a goal of ensuring that all SPOs thoroughly understand such
                 rules is, in our opinion, an appropriate strategy at all SPR sites.

RECOMMENDATION   To help address the issue with the use of deadly force we identified
                 in this report, we recommend that the Project Manager, Strategic
                 Petroleum Reserve Project Management Office, ensure that all
                 SPOs understand when it is appropriate to use deadly force.

MANAGEMENT AND   The Project Manager, Strategic Petroleum Reserve Project
INSPECTOR        Management Office, concurred with the recommendations in this
COMMENTS         report and considers the recommendation closed. Management
                 indicated that had they taken corrective action to address the SPOs
                 awareness of deadly force use and will continue with their
                 intensive oversight and improvement efforts to ensure that each
                 SPO fully understands when deadly force is justified. We consider
                 management's comments and corrective actions responsive to our
                 recommendation. Management comments are included in their
                 entirety in Appendix 2.




Page 8                                                 Recommendation and
                                         Management and Inspector Comments
Appendix 1
SCOPE AND     This inspection was primarily performed from May through
METHODOLOGY   September 2011 at the SPR Project Management Office, New
              Orleans, Louisiana; Bayou Choctaw, Louisiana; West Hackberry,
              Louisiana; Big Hill, Texas; and, Bryan Mound, Texas. Fieldwork
              for this inspection was also conducted in August 2010 and then
              placed in suspension due to resource constraints until May 2011.
              This was a follow-up performance inspection to our previous
              report on "Review of Security at the Strategic Petroleum Reserve,"
              (DOE/IG-0693, June 2005), which also included information from
              an Office of Inspector General (OIG) Hotline allegation. Given
              the past security concerns, the recent complaint and the importance
              of maintaining effective security, we initiated this inspection to
              determine if SPR had improved selected aspects of its security and
              to assess the facts and circumstances surrounding the allegation.
              To accomplish the inspection objective, we:

                  • Reviewed and analyzed the SPR response and corrective
                    actions related to the previous OIG report
                    recommendations in the Departmental Audit Report
                    Tracking System;

                  • Reviewed and analyzed Federal regulations, Departmental
                    directives, and other guidance pertaining to deadly force,
                    HSPD-12 badges and an Office of Health, Safety and
                    Security inspection report; and,

                  • Interviewed Federal and Contractor staff at the SPR to
                    review changes and improvements to physical security,
                    procedures and training, including 36 SPOs.

              We conducted this performance inspection in accordance with the
              Council of the Inspectors General on Integrity and Efficiency's
              Quality Standards for Inspection and Evaluation. Those standards
              require that we plan and perform the inspection to obtain
              sufficient, appropriate evidence to provide a reasonable basis for
              our results of inspection based on our objective. We believe the
              evidence obtained provides a reasonable basis for our results based
              on our inspection. The inspection included tests of controls to
              comply with laws and regulations to the extent able to satisfy the
              inspection objective. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our inspection. Also, we assessed
              SPR's compliance with Government Performance and Results Act




Page 9                                                 Scope and Methodology
Appendix 1 (continued)
                    of 1993 (GPRA) and found that performance measures had been
                    established relating to security management. Based on the
                    information provided by the Department, we determined that SPR
                    met their 2010 GPRA metric for security management.
                    Specifically, the contractor assurance program regarding security
                    was awarded a score of 100 by SPR. We noted that the
                    Performance Fee Board Report identified opportunities for
                    improvement at Big Hill and West Hackberry regarding design
                    efforts for security upgrades. Finally, we relied on computer
                    processed data to some extent to satisfy our objective related to
                    security management. We also relied on the data from a Federal
                    database report to quantify the number of personnel that had
                    requested and obtained an HSPD-12 background investigation.
                    We confirmed the validity of such data, as appropriate, by
                    conducting interviews and reviewing source documents.

                    Management waived the Exit Conference.




Page 10                                                     Scope and Methodology
Appendix 2


             MANAGEMENT COMMENTS




Page 11                            Management Comments
Appendix 2 (continued)




Page 12                  Management Comments
                                                                     IG Report No. INS-O-12-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
 The Office of f Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
                         through the Internet at the following address:

            U.S. Department of Energy Office of Inspector General Home Page
                                  http://energy.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form.
